 NATIONAL ARCHIVES AND RECORDS 

     ADMINISTRATION (NARA) 





    Report on the 2008 Review ofNARA's 

Compliance with Section 522 of the Consolidated 

          Appropriations Act, 2005. 

(policies, Procedures & Practices for Protection of Personally 

                  Identifiable Information) 



                   Clifton Gunderson LLP 

                     September 24, 2008 

                                                TABLE OF CONTENTS



                                                                                                                                        PAGE 



TRANSMITTAL LETTER .................................................................................................................. 1 




EXECUTIVE SUl\I1MARy.................................................................................................................... 2 




BACKGROUND ...................................................................................................................................... 3 




SCOPE AND METHODOLOGy...................................................................................................... 4 




DETAILED RESULTS OF REVIEW .............................................................................................. 7 




APPENDIX - MANAGEMENT'S RESPONSE ......................................................................... 10 

Paul Brachfeld
Inspector General
Office of the Inspector General
8601 Adelphi Road,
College Park, MD

Dear ~Ir. Brachfeld,

\"(!e are pleased to present our repOlt on the National Archives and Records Administration's
(NARA) compliance with protection of personal data in an identifiable form. TIus review included
assessing compliance with applicable federal security and privacy la\,"s and regulations as \vell as
assessing the privacy and data protection procedures used by NARA as they relate to the guidelines
set forth in Section 522-d of the Omnibus SPending Bill for TranspOftation. TreoS!1ry, Independent Agetlcies.
and Gemral GmJe171mmt Approp,iatioJls Act of 2005. The objectiye of our review was to deternline
whether: (I) the necessity of using personally identifiable information for processing was properly
evaluated; (2) the Archives had established adequate procedures governing the collection, use and
security of personally identifiable information; and (3) the Archives had properly complied \,"ith the
prescribed procedures to pre,"ent unauthorized access to and unintended use of personally
identifiable information.

\'\'e interviewed key personnel involved in identifying and protecting personally identifiable
information and reviewed documentation supporting NARA's efforts to comply with federal privacy
and security laws and regulations.

TIllS performance audit was conducted from July 2008 to August 2008 at the NARA Headquarters
in College Park, Matyland and Arduves I in Washington, District of Columbia and was conducted in
accordance .vith GeJJeI(J/~}' Accepted GOl'e1'11l11ellt AuditiNg Standards.

\Ve appreciate the opportuni.ty to have served you once more and are grateful for the courtesy and
hospitality extended to us by NARA. personnel. Please do not hesitate to call me at (301) 931·2050
or email atgeorge.fallonrmcliftoncpa.comif you ha,-e questions.

\'\'e have incorporated NARA management's response to this report as an appendix.

Sincerely,

~~LLjJ
CUFTON GUNDERSON LLP
Calverton, )'Iall"land
September 24, 2008


tel .301-')31--.'050
tas .301·'1.>1-1-10
w·ww.clif!011cpa.com                                        "snmglnn. DC
EXECUTIVE SIJMl\'lARY

The NA~-\' Privacy Office or the Office of General Counsel has been proactive in carrying out its
statntmy responsibilities and its related role in ensuring compliance with Section 522 of the General
Government Appropriations Act of 2005. Specitically, the Privacy OHice has established a
tramewmk for identifying information systems containing m processing personally identifiable
infmmation (PH), securing data contained in these systems, conducting Princy Impact Assessments
(PIA) and reporting Systems of Records Notices (SORt"Js), all required by the Act.

Based on our review, NARA has (a) evaluated the necessity of using PH fm data processing; and (b)
established procedures for the collection and H.se of PII. HO\vever more 'vmk remains to be
accomplished. Specifically, we noted the follo\ving:

The NARA Privacy Office (OGC) ;md the Office ofInfonnation Senices (NH) has made
sJ",.omlicant drort il1 carrying Ollt its statl/tory responsibiHties and its reL'lted role iII ensurHlg
compliaIlce with Section 522 of the General GoverIlmeIlt Appropriations Act. However, we
noted policies and procedures as reqllired by Office of .M~aIlagement and Budget (OMB)
Memor;mdllm 06-16 have Ilot been de·veloped.

);- No formalized policies and procedures are in place for Personally Identifiable Information
    which: (1) explicitly identify the rules for determining whether physical removal is allowed; (2)
    require the information be encrypted and that appropriate procedures, training and
    accountability measures are in place to ensure that remote use of this encrypted intormation
    does not result in bypassing the protections provided by the ennyption; (3) explicitly identify the
    rules fm determining whether remote access is allowed for personally identifiable information
    that can be removed; (4) require that the remote access be accomplished via a "irtnal pril:ate
    network (VP).I) connection established using agency issued authentication certificate (s) or
    hardware token, when remote access is allowed; (5) identify the rules for determining \vhether
    download or remote storage of the information is allmved, when remote access is allowed.

NARA technical controls related to tbe protectiOII ofpersonaJ{y identi1i;lble information
need to be streIIgthened.

);- Ennyption mechanisms are not in place on portable devices contaitlitlg privacy data such as
    laptops, portable digital assistants (PDAs) or tlmmb dri\"es leaving the ).lARA premises.
);- Two factor authentication is not in place for remote access login.
);- Risk assessments tor Badging and Access System (B&A) and Automated Collection
    Management Database (IO/ACi\ID) is outdated and has not been updated at least evelT three
    years as required by federal mandates.




                                                  2

BACKGROUND
The Privacy Act of 1974 requires agencies to "establish appropriate administmti,'e, technical and
physical safeguards to ensure the security and confidentiality of records and to protect against any
anticipated threats or hazards to their security or integrity which could result in substantial harm,
embarrassment, inconvenience, or unfairness to any individual on ,,,,hom the information is
maintained," 5 U.S.c. § 552a (e) (10). The Privacy Act limits agencies to "maintaining only such
information about an individual as is relevant and necessary to accomplish a purpose of the agency
required to be accomplished by statute or Executive order of the President," 5 l.".S.C. § 552a (e) (1).

The E-Government Act of 2002 strives to enhance protection of personal information in
government information systems, by requiring the agencies to conduct PIAs. A PIA is an analysis of
hO\v personal information is collected, stored, shared, and managed in a federal system.

Section 522 of the 2005 Consolidated Appropriations Act for Transportation and Treasnry, Public
Law 108-447, Division H, provides privacy requirements for NARA, including the implementation
of privacy policies and procedures for public and employee data. OMB Memorandum-OS-08 also
requires each agency to designate a Senior Agency Official for Privacy. For NARA, the General
Counsel also selves as the Senior Agency Official for Privacy.

NARA's llse ofpersomilly identifiable inionwltion andrelatedpolicies andprocedllres

NARA is an independent agency \vithin the executive branch of the Federal Gmremment
responsible for preserving, protecting and providing access to the records of our Government.
NARA also creates and receives a ,vide range of PH in the course of functioning as an executi'\'e
branch with 3,229 employees. NAR..A.. also collects information on its contractors, volunteers and
researchers who nse the facilities and make requests for archival records as well as indiyidnals who
donate historical records or make financial contributions.

The NARi\. Privacy Program is housed \vithin NARA.'s Office of General Counsel (OGC), located
in Archives headquarters. The goal of the NARi\. Prlyacy Program is the protection of PlI. The
program provides leadership and assistance to NAILA. '5 divisions, nine regional archiyes and twelve
Presidential libraries around the country on issues related to the Privacy Act of 1974, E-Gm'emment
Act of 2002 and related OMB privacy guidance.

The NARA Privacy Program has an on-going initiatiw to grow the skills, knO\vledge and capabilities
of the di"islon heads and system owners.

In conformity ,vith the 2005 Consolidated Appropriations Act, NARA's Senior Privacy OffIcial
published a Report of Senior Agency OftIcia1 for Privacy on September 2006. This report was sent
to the NARA OIG and to Congress. Tills report outlines the following areas:

•	   PrO[fSS  of LfJllfbfding PlinN] Rel'ieJl': Includes an O\"elYleW of NAR...,\'s pnvacy management
    program and determination of systems containing PlI.
• 	 l\'"..-iRA USt' qj"PII. Pril'tu] and Data ProtectiON Po/irie.. and Proadf1reJ: Includes an oyelyiew of efforts
    used to track PH, NARA privacy officer's compliance efforts, NARA-wide policies and
    procedures developed or drafted to date in compliance with various privacy laws, regulations
    and 01IB gnidance, and other key priyacy lllltiatives.



                                                        3

NARA's mission is to safeguard and preselTe records of the CS Goyernment. In doing so, NARA
is required to collect and nse a significant amonnt of personal information from employees and the
pnblic for both administrative and operational initiatiyes. Also, presidential records and other
archival records \vhich are classified as PI! are preselTed within the Archives. To ensure
information collected and maintained is secure, NARi\ has appointed an agency wide priyacy officer
located within the OGe. In addition to providing leadership on NARA-wide policies and
procedures, the NARA Priyacy Program works collaboratiwly with NH to gu.ide and support their
priyacyawareness and compliance efforts. The methodology is based upon the follO\ving:

•   Establish the priority, authority, and responsibility,
•   Assess current privacy en,-ironment,
•   Organize resonrces necessalY for the project's goals,
•   Develop policies, procedures and practices,
•   Implement policies, practices and procedures,
•   l'.Iaintain the policies, practices and procedures,
•   Manage the exceptions and/or problems with the policies, practices and procedures.

In compliance with this requirement, NAR.,.-\ undertook a review of the use of PH and pri,-acy
policies and procedures at the agency wide level.

The NARA priyacy officer in conjunction with the NH maintains an un-entory of allulformation
technology systems that collect, use, and share PlI. As of the date of this report, there are 19 such
systems.

Given the signiticant amount of sensitiye PI! data handled by the NARA, dIe NAR..A Priyacy
Officer continually works to track PI! nse and identify weaknesses dlat may require corrective action
at the program or system leveL A critical part of tius process involves the review of PIAs and
SORNs (if applicable) that are prepared by each PI! system owner. In some cases, however, a PH
system may be ex.empt from the requirement to perform a PIA if dus system was created or
implemented prior to dle enactment of the E-Govemment Act of 2002. The NARA Privacy Oftice
maintains a list of all PI! systems that ha,'e completed a PIA or SOR..'\T and is responsible for posting
all final PlAs and SOR..'\fs on the NAR.,.J\ Privacy Program web page.

SCOPE AND METHODOLOGY

NARA's OIG contracted \,-ith Clifton Gunderson LLP to conduct an audit of NARA's privacy and
data protection policies and procedures in compliance with Section 522. The objective of tlus
reYlew was to assess the progress ofNAR..;\.'s Privacy Office UI canying out its responsibilities under
tederallaw, more specifically, to determine whether: (1) the necessity of using personally identifiable
ulfonnation for processing was properly e,-alnated; (2) NARA had established adequate procedures
govenllilg the collection, use and security of personally identifiable infomlation; and (3) NARA
properly complied with the prescribed procedmes to pre,'ent unauthorized access to and unultended
use of personally identitlable information.

To address tIus objective, we reviewed federal statutes including dIe PriYacy Act of 1974 and
Section 208 of the E-Gowmment Act, to identify responsibilities of NARA's Privacy Office. \\Ce
reviewed and analyzed privacy policies, guidance, and reports, and intenTlewed with ofticials from
the Privacy Oftice. The personnelultelyie,ved ulClnded the Senior Privacy Officer and the Pri,'acy



                                                   4

Act OftIcer to identify pnncy oftIce's plans, priorities, and processes for implementing its
responsibilities using available reSOUlces.

\'\'e further evaluated the Privacy OftIce policies, guidance, and processes for ensuring compliance
with the Pri-'tacy Act, and d1e E-Government Act. \'\!e analyzed the SOfu'\Js and PIA development
processes and assessed the progress of the office in implementing these processes. This analysis
included analyzing the Pri,"acy Office's overview of PL!\.s developed and assessing the overall
quality of published PIAs.

Perform an asseSSIllent ofNARA TS privacypolicies
\ve reyiewed NARA information management practices for protection of PIT, as they relate to the
guidelines set forth in Section 522-d of the 2005 Goyernment Appropriations Act. Public Law 107­
347, the E-Government Act of 2002, defines "identifiable form" as t1~r representatiotJ ofil~frmllatio!l that
permits the idetltity ~l an indilidltal to JJlhollJ the i!~lortl1ation applies to be reasonablY iI!femd ~y either direct or
indired means. \'{!e performed procedures to assist the OIG in evaluating NARA's information
management practices in order to:

     A. 	 Determine the accuracy of the descriptions of the use of information in identitlable forml
          while accounting for current technologies and processing methods~
     B. 	 Determine the effectiveness of princ) and data protection procedures by measuring actual
          practices against established procedural gu.idelines;
     C. 	 Determine compliance with the stated privacy and data protection policies of NARA and
          applicable laws and regulations;
     D. 	Determine whether all technologies used to collect, use, store, and disclose information in
          identifiable form allow for continuous auditing of compliance wid1 stated privacy policies
          and practices governing the collection, nse, and distribution of information in operation of
          the program, and
     E. 	 Pro,"ide NARA with recommendations, strategies, and specifIC steps, to improve privacy and
          data protection management.
     F. 	 Evaluate NARA's nse of information in identifiable form.

\\Te examined NARA's PII policies, practices and data protection procedures and mechanisms in
operation. Specifically, the tasks focused on:

};- a review of NARA's technology, practices and procedures with regard to the collection, llse,
     sharing, disclosure, transfer and storage of information in identitiable form;
y. 	 a leview of NARA's stated privacy and data protection procedures with regard to the collection,
     nse, sharing, disclosure, transfer, and security of personal information in identifiable form
     relating to NARA's employees and the public;
};-	 a detailed analysis of NAR..>\'s internet, network and \X'ebsites tor privacy vulnerabilities,
     including l)Non-compliance with stated practices, procedures and policies; and 2) Risks tor
     inadvertent release of information in an identitlable form from NARA's website; and


linformation in identifiable form is information in an IT system or online collection: (i) that directly identifies an
individual (e.g., name, address. social security number or other identifying number or code, telephone number, email
address, etc.) or (Ii) by which an agency intends to identify specific individuals in conjunction with other data
elements. i.e., indirect identification. (These data elements may include a combination of gender, race, birth date,
geographic indicator, and other descriptors).


                                                            5
};- a re,'iew of NARA's compliance ,vith section 522-d of the Omnibus Spending Bill for
    Transportation, Treasmy, Independent Agencies, and General Government Appropriations Act
    of 2005;
)- an analysis of the extent to "vhich the Privacy Report tiled with the OIG is accurate, account's
    for NARA's current technologies, information processing, and whether all areas are consistent
    with the Consolidated Appropriations Act, 2005, Division H, Titie V, Section 522;
j; an assessment of the reasonableness of NARA internal legal assessments of compliance
    requirements for privacy regulations, laws and other federal guidelines; and
};- an assessment of whether Pri,,'acy Impact Assessments are completed and approved for a sample
    of required systems.

The E-Gowmmel1t Act of 2002 requires agencies to conduct a PIA either (1) before developing or
procuring information technology systems or projects that collect, maintain or disseminate
information in identifiable form or (2) when initiating a new electronic collection of information in
identifiable form for 10 or more persons (excluding agencies, instmmentalities or employees of the
federal government). In general, PLi\s are required to be performed and updated as necessalJ where
a system change creates new privacy risks, for example, when converting paper-based records to
electronic systems. On the other hand, no PIA is required "vhere (1) information relates to internal
government operations, (2) has been previously assessed under an evaluation similar to a PIA, or (3)
where privacy issues are unchanged.

To accomplish the abm'e-mentioned objectives, we:

• 	 Reviewed NARA's report to the OIG dated September 27, 2006. Tius report was prepared in
    fulfillment of Section 522-c of the Appropriations Act. " .. . Each agm~T .rha!!prej)are a written repott
    ofits lise of infortllation in an idelltiftableform. alolTg lrifb itsP;ira9' and data protection polides andprocedl1res
    and record it ll'ith the Illpector Gmeml of the agency to .ren'e as a Vetlcbtllark for the agmcy. Eacb report sball
    be signed I:J' tbe agetJt)' j)rira9' qfJirer to rerif), that the agenq intends to Cfltllp!y !t'itb the procedures iff tbe repOl1.
    B)' signing tbe report. the p,lira[y officer also 1'el?,11es that the a,gent)' is M!l IfsifTg it!forfllatioll ill idef/tijlable fot7J1
    as detailed in tbe repOit. "
• 	 Verified that NARA had identified and maintained an inventmy of information systems
    containing PII and systems requiring PIAs and had conducted PIAs for electrOIuc infonnation
    systems.
• 	 Reyiewed a sample of PIAs for tile systems selected nnder reyiew and noted the follmving:
    o 	 \\"hat information was collected (e.g., nature and sOllke).
    o 	 \'{,'hy the information was collected (e.g., to determine eligibility).
    o 	 Intended use of the inform,ation (e.g., to veri£)' existIng data).
    o 	 \\'ith whom the information ,vas shared (e.g., another agency for a specified programmatic
         purpose).
    o 	 What opportUluties individuals had to decline to provide information or to consent to
         palticular nses of the information (otiler than reqnired or authorized uses), and how
         indi,tiduals commnnicated consent.
    o 	 How the information was secmed from abusive use (e.g., administrative and technological
         controls).
• 	 Selected a representatiye sample of systems and tested tec1uucal controls to achieye the PII
    protection objectives.
• 	 Reviewed tile natnre and use bfPII, to determine ,vhether a SORL'J "vas required and if required,
    whether one was published. \X:'e fu.rti1er rev'iewed NARA's publication ofSORL""s in the Federal
    Register and verified that they contained only information about individuals that was" reiertlllt and


                                                                    6

   lJf(t'J:\{)~J'" to accomplish ::\TARA.'s purpose. W'e Yeritled that th.is information was updated as
   necessary.

For the Fiscal Year 2008 Privacy Assessment, we were not engaged to and did not perform
procedures to determine if th.e inyentory of systems containing PH data was exhaustive and if
NARA. had performed procedures to ensure all NARA. IT systems had been reviewed for existence
of PH inf'Ormation. \Xre re,"ie,t;ed the inventory of 19 PH systems received from the NARA.
Inspector General ot11ce. From tlus population, ,ve selected a representative sample of 15 systems
for testing, 13 PH systems and 2 non-PH systems. The results and exceptions noted in this report
are based on this sample.


DETAILED RESULTS OF REVIEW

1. 	 Although the NARA Privacy ORice and O/lice of Infonnation Senices (NH) have
   establishedpolicies ;mdprocedures to protect lVARA's PII systems and data, the Privacy
   O/lice does not properly monitor its priv:lc.v processes for qllulity compli'lflce with the
   prmisions ofSectiOIl 522.

The NARA. Privacy Office has made sigluficant progress in addressing its statutory responsibilities
under the General Government Act by developing processes to ensure implementation of privacy
protections in agency ,vide programs. For example, the Privacy Oftlce has established processes t'Or
ensuring agency wide compliance with the PIA requirement in the E-Government Act of 2002.
Instituting this frame,,'ork has led to increased attention to privacy requirements on the part of
agency wide components, contributing to an increase in the number of PIAs issued.

\X:1ule substantial progress has been made in these areas, more ,,'ork needs to be done in other
important aspects of NARA.'s prinK)' protection processes. The details of the matter are as follows:

General conditions found during the audit
   .,. ::--Jo formalized policies and procedures are in place for Personally Identifiable Information
       wluch:
                 explicitly identify the nues for determining whether physical removal is allowed
                 require the information be ennypted and that appropriate procedures, training, and
                 accountability measures are in place to ensnre that remote nse of this encrypted
                 information does not result in bypassing the protections pro"ided by the ennyption.
                 explicitly identify the mles for detemuning whether remote access is allowed for
                 personally identitlable information tllat can be removed,
                 require that tius access be accomplished via a virtual private network (VPN)
                 connection established using agency-issued authentication certificate(s) or hardware
                 token, when remote access is allowed,
                 identify the mles for detemulung whether download and remote storage of the
                 information is allowed (For example, the policy cmud permit remote access to a
                 database, but prohibit downloading and local storage of that database.), when remote
                 access is allowed.




                                                  7

M 06-15, ~/emor{mdllm for Heads of Departmellts alld AgeIIcies for Safegllilrdillg
Personally Idelltifi:lble Illformation states: "This memorandum reemphasizes your many
responsibilities under 1a\v and policy to appropriately safeguard sensitive personally identifiable
intormation and train your employees on their responsibilities on these areas. In particular, the
Privacy Act requires each agency to establish 'appropriate administrative, technical and physical
safeguards to insure the security and confidentiality of records and to protect against any anticipated
threats or hazards to their security or integrity which could result in substantial harm,
embarrassment, inconvenience or unfairness to any individual on whom information is maintained."

.l'l!1 06-16, }t;femoral1dllm for tile Heads of Departmellts a1Jd Agencies for Protection of
 Sensitive Age11CJl Information states: "(1) Encrypt all data on mobile computers/devices which
cany agency data unless the data is detennined to be nOll-sensiti,-e, in '>vriting, by your Deputy
Secretary or an indiyidl1al he/she may designate in writing. (2) Allow remote access only with two
factor authentication where one of the factors is provided by a deyice separate from the computer
gaining access (3) ese a time out function for remote access and mobile devices requiring user re­
authentication after 30 minutes of inacti"vity (4) Log all computer readable extracts from databases
holding sensitive information and ,-erify each extract including sensitive data has been erased within
90 days or its use is still required.

Recommendations;

\V'e recommend that NARA. management:
     )r Deyelop and tonnalize NARA policies which explain the rules for determining whether
        physical removal/remotely accessing Pll is allowed and the appropriate procedures involved.

2. 	 NARA Tecl1I1ical Controls related to tile protectiOIl ofpersonally identifiable lllformatioII
     11eed to be strel1gtbened.

The NARA Priyacy Office has made significant eftol1 in carrying out its statntmy responsibilities
and its related role in ensuring compliance with Section 522 of the General Government
Appropl-iatiol1s Act, notably by establishing a framework for securing data contained in privacy
systems. However, our revie,,' of a sample of 20 privacy systems highlighted that techn.ical control
over access to these systems needed to be strengthened. The details are as follows:

);.-	 Encryption mechanisms are not in place on pOltable devices containing privacy data such as
      laptops, pmtable digital assistants (PDAs) or thumb drives le~l\-ing the NARA premises.
,. Two factm authentication mechanisms are not in place for remote access login.
~ Risk assessments for Badging and Access System (B&A) and Automated Collection
      :tvIanagement Database (10/ ACMD) is outdated and has not been updated at least eyery three
      years as required by federal mandates.

M 06-16, Memor;mdllIll for tile Heads of" Departments a1Jd Agencies for Protection of"
Sensitive Agency Informatio11 states: "(1) Encrypt all data on mobile computers/devices which
carry agency data unless the data is detenruned to be non-sensitive, in writing, by your Deputy
Secretary or an indi'l:idual he/she may designate in writing. (2) Allow remote access only \\-ith two
factor authentication where one of the factors is provided by a device separate from the computer
gaining access (3) L se a time out t,mction for remote access and mobile devices reqniring nser re­
authentication after 30 minutes of inactivity (4) Log all compnter readable extracts from databases




                                                  8
holding sensitive information and verify each extract including sensiti"e data has been erased within
90 days or its use is still required.

OA1B Circlllar A-130, Appendiy III, j}[.lI1:lgement ofFederal InfonnatiOIl Resollrces states:
 "Management anthorization should be based on an assessment of management, operational, and
technical        controls. Re-anthorization should occur prior to a significant change in processing,
but at least every three years. It should be done more often where there is a high risk and potential
magnitude of harm."

 NIST 800-53: Recommended Security Controls Jor Federal hlJonnation Systems
 states: "Based on the results of the updated risk assessment, tile organization should determine
 \\Yhat additional security controls and!or control enhancements may be necessary to address the
 \'111nerability (or vnhlerabilities) related to the event or what corrective actions may be needed to fix
 currently implemented controls deemed to be less than effective. The security plan for the
 information system should then be updated to reflect these corrective actions."

 NIST 800-37: Gllide for tbe SecurifJ' CertiJicatiOIl and Accreditation ofFederal hlformation
 Systnns states: "TIle FIPS 199 security categolT should be considered during the risk assessment
 to help guide the information system O\vner's selection of security controls for the information
 system. Security categorization information is typically documented in the system identification
 section of the system security plan or included as an attaclullent to the plan."

1\-[ 07-16 AlemorandllIl1 tor tbe Heads oj" Execlltive Departments aIld Agencies for
Salegllarding Against and RespOIlCmlg to tbe Bre;lcJl ofPersoIllul.,v IdeIltifiable Information
states: "Assign an impact level to all information and intonnation systems: Agenc.ies must follO\v the
process outlined in FIPS 199 to categorize all intormation and information systems according to the
standard's three levels of impact Agencies should consider categorizing sensitive personally
identifiable information as moderate or high impact."

Recommendations:

W!e recommend that NARA management:
    ..,. Ensure encryption mechanisms are in place tor 011 all pOltable devices containing privacy
         data such as laptops, thumb drives and PDAs.
    ..,. Implement two factor authentications for remote access logins.
    , Ensure risk assessments for the Badging and Access System (B&A) and Automated
         Collection Management Database (IO/AC\ID) and all major applications and general
         support s~'stems ale conducted at least every three years or upon significant changes in its
         operating em-ironment, prior to its expiration.




                                                    9

                  _National
                   .._ _"'-_ _Archives
                              - - - _ .__
                      .•....." ..""'._....
                                          and
                                           __
                                              Records
                                               _ - - - Administration
                                             ......    --------_.      ._... ............. ..
                                                                              ,,                .....                                 

                                                                                                        700 Pennsylvania Avenue, NW
                                                                                                         Washington, DC 20408-0001


Date:      September 17, 2008

To:        Paul Brachfeld, NARA Inspector General

from:      Allen Weinstein, Archivist of the United States

Subject:  Response to Draft Audit Report 08-15, Clifton Gunderson LLP (CG) 2008 Review of
NARA's Compliance with Section 522 of the Consolidated Appropriations Act of 2005 (Policies,
Procedures, and Practices for Protection ofPersonally Identifiable Information

           Thank you for the opportunity to review and comment on the draft audit report 08-15 on
           NARA's compliance with Personally Identifiable Information (PU) requirements. We
           appreciate the efforts of your staff and all parties associated with this audit process.

           We are pleased that CG notes the proactive and significant progress that the NARA Privacy
           Office has made in addressing our statutory responsibilities by developing processes to ensure
           implementation of privacy protections in agency wide programs. We concur with the need to
           develop and formalize NARA policies regarding physical removal and remote access ofPII
           with corresponding procedures. Efforts to update our privacy related policies are already
           underway.

           . We are also pleased that CG comments on the framework we have established for securing
             data in privacy systems. We concur with the need for more technical controL Risk
             assessments are part ofour Certification and Accreditation process. We are near the end of a
             business impact analysis on our systems that "rill help us ensure that risk assessments are
             completed as appropriate for each system. Efforts related to encryption and t\vo factor
             authentication are already underway.

           As new requirements for personally identifiable information are implemented by OMB, we
           will make every effort to comply in the prescribed timeframes. Again, we would like to thank
           the Otlice of Inspector General and Clifton Gunderson LLP for working in a professional and
           dedicated manner with NARA h1aff.




            ALLEN WEINSTEIN
            Archivist ofthe United States




                                                                      10
                                                      NARA's web site is http://www.archives.gov
                  National Archives and Records Administration
                  Office ofthe Inspector General
                                                                                 8601 Adelphi Road, Suite 1300
                                                                                 College Park, Maryland 20740

Date       September 30, 2008

To         Allen Weinstein, Archivist of the United States

From       Paul Brachfeld, Inspector General

Subject:   Management Letter 08-016: Security Response at A-I

           This memorandum is intended to ensure effective, tested security measures are in place to protect
           the safety and integrity of the National Archives building (A-I), staff and visitors in the heart of
           our nation's capital. These concerns are neither theoretical nor abstract, but grounded in direct
           observation of events that unfolded the morning of September 23, 2008 when security
           vulnerabilities were exploited allowing protesters to gain access to and remain in control of the
           southwest comer ofthe Archives building on Constitution Avenue. NARA's response to this
           illegal trespass and occupation (DC Code Section 22-302) demonstrated a lack of planning,
           preparation, coordination and training on the part of security personnel entrusted with the
           paramount duty of protecting NARA structures, persons and holdings. Based upon the defined
           "success" of the demonstrators, the potential for copy-cat actions exists with absolutely no
           assurance they will be as docile as this event. Therefore, it is essential security defects be
           addressed expeditiously.

           In an article published in the Baltimore Chronicle and Sentinel, one of the "Veterans for Peace"
           demonstrators (identified as Ellen Barfield) who participated in the self-described "Ledge-In"
           defines the mode of their ruse that allowed them unchallenged access to the building perimeter.
           Garbed as construction workers they circumvented the moat surrounding the building. Once
           secure, Ms. Barfield states "it was interesting that the Archives seemed to have no contact with
           any ofthe .. .law enforcement entities in DC even though it is a Federal Building." Per Ms.
           Barfield they were even able to reinforce their sundries by having a supporter surreptitiously
           smuggle water to them when their supplies ran low, despite the fact security had allegedly
           quarantined the area.




           Additionally, the protesters were allowed to set their protest time schedule of twenty-four hours
           and then were permitted to leave without arrest or consequence. This type of capitulation will
           only encourage further trespassing. As one of the protestors, Elliott Adams, has been quoted as
           saying "We considered staying longer this time but we are not prepared for longer than
           this...although we may be back again, soon."




                                       NARA 's web site is http://www.nara.gov
All NARA staff, visitors and stakeholders should be concerned as to the events of September
  rd
23 , and their future implications at A-I and other NARA facilities including A-2 in College
Park, Md. It is imperative that responsible NARA officials take immediate steps to develop,
implement and test security measures addressing the vulnerabilities so clearly exposed and
exploited by a handful of protesters at A-I.




Paul Brachfeld
Inspector General




                               NARA's web site is http://www.nara.gov
                 National Archives and Records Administration
                                                                                 700 Pennsylvania Avenue, NW
                                                                                  Washington, DC 20408-0001


Date:     September 17, 2008

To:       Paul Brachfeld, NARA Inspector General

From:     Allen Weinstein, Archivist of the United States

Subject:  Response to Draft Audit Report 08-15, Clifton Gunderson LLP (CG) 2008 Review of
NARA's Compliance with Section 522 of the Consolidated Appropriations Act of2005 (Policies,
Procedures, and Practices for Protection of Personally Identifiable Information

          Thank you for the opportunity to review and comment on the draft audit report 08-15 on
          NARA's. compliance with Personally Identifiable Information (PH) requirements. We
          appreciate the efforts of your staff and all parties associated with this audit process.

          We are pleased that CG notes the proactive and significant progress that the NARA Privacy
          Office has made in addressing our statutory responsibilities by developing processes to ensure
          implementation of privacy protections in agency wide programs. We concur with the need to
          develop and formalize NARA policies regarding physical removal and remote access ofPII
          with corresponding procedures. Efforts to update our privacy related policies are already
          underway.

          We are also pleased that CG comments on the framework we have established for securing
          data in privacy systems. We concur with the need for more technical control. Risk
          assessments are part of our Certification and Accreditation process. We are near the end of a
          business impact analysis on our systems that will help us ensure that risk assessments are
          completed as appropriate for each system. Efforts related to encryption.and two factor
          authentication are already underway.

          As new requirements for personally identifiable information are implemented by OMB, we
          will make every effort to comply in the prescribed timeframes. Again, we would like to thank
          the Office of Inspector General and Clifton Gunderson LLP for working in a professional and
          dedicated manner with NARA staff.




           ALLEN WEINSTEIN
           Archivist of the United States




                                                    10
                                   NARA 's web site is http://www.archives.gov
